   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




January 8, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Kings Community Action
               Organization, Inc., for the Head Start, Early Head Start, and
               Migrant and Seasonal Head Start Programs (A-09-09-00096)


The attached final report provides the results of our limited scope review of Kings Community
Action Organization, Inc. (Kings), for the Head Start, Early Head Start, and Migrant and
Seasonal Head Start (MSHS) programs. The Administration for Children and Families (ACF),
Office of Head Start, requested this review as part of its overall assessment of Head Start
grantees that have applied for additional funding under the American Recovery and
Reinvestment Act of 2009 (Recovery Act).

President Obama signed the Recovery Act into law on February 17, 2009. The Recovery Act
includes measures to modernize our Nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and Departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objectives of our limited scope review were to determine whether (1) Kings is fiscally viable
and (2) Kings’ financial management system adequately managed and accounted for Federal
funds.

Kings is fiscally viable. However, Kings did not meet the required non-Federal share of
20 percent for its MSHS program for program year 2009 (February 1, 2008, through
January 31, 2009). In addition, Kings’ financial management system adequately managed and
accounted for Federal funds except for its systems and internal controls related to property
Page 2 – Yvette Sanchez Fuentes


management. Specifically, Kings did not perform a physical inventory of its equipment at least
once every 2 years as required by Federal regulations, and Kings’ equipment inventory records
did not contain all required information.

In written comments on our draft report, Kings stated that it did not dispute the validity of the
facts in the report.

In determining whether Kings should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
Kings’ financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-09-09-00096 in all correspondence.


Attachment


cc:
Jan Len
Regional Program Manager
Office of Head Start
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   RESULTS OF LIMITED SCOPE
  REVIEW AT KINGS COMMUNITY
 ACTION ORGANIZATION, INC., FOR
  THE HEAD START, EARLY HEAD
START, AND MIGRANT AND SEASONAL
     HEAD START PROGRAMS



                       Daniel R. Levinson
                        Inspector General

                         January 2010
                         A-09-09-00096
                           Office of Inspector General
                                             http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start (including Early Head Start and Migrant and Seasonal Head Start (MSHS)) is a national
program that promotes school readiness by enhancing the cognitive, social, and emotional
development of children through the provision of health, educational, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

Head Start provides grants to local public and private nonprofit and for-profit agencies to deliver
comprehensive child development services to economically disadvantaged children and families.
Early Head Start promotes healthy prenatal outcomes, enhances the development of infants and
toddlers, and promotes healthy family functioning. MSHS provides services to the children of
low-income migrant and seasonal farmworkers.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Kings Community Action Organization, Inc. (Kings), a nonprofit agency, operates the Head
Start, Early Head Start, and MSHS programs, which provide education, health, and social
services to low-income children and their families at locations throughout Kings County,
California. Kings was established in 1965 and has been in sustained operation for 44 years.

Kings is funded primarily through Federal and State grants. According to Kings’ financial status
reports, Kings received the following ACF grant funds: Head Start and Early Head Start funds
totaling $4,548,216 for program year (PY) 2009 (April 1, 2008, through March 31, 2009) and
MSHS funds totaling $1,401,248 for PY 2009 (February 1, 2008, through January 31, 2009).

Kings was awarded Recovery Act grant funds for the budget period July 1, 2009, through
September 30, 2010, totaling $394,809 for cost-of-living increases and quality improvement.

OBJECTIVES

The objectives of our limited-scope review were to determine whether (1) Kings is fiscally viable
and (2) Kings’ financial management system adequately managed and accounted for Federal
funds.




                                                 i
SUMMARY OF FINDINGS

Kings is fiscally viable. However, Kings did not meet the required non-Federal share of
20 percent for its MSHS program for the year ended January 31, 2009. In addition, Kings’
financial management system adequately managed and accounted for Federal funds except for its
systems and internal controls related to property management. Specifically, Kings did not
perform a physical inventory of its equipment at least once every 2 years as required by Federal
regulations, and Kings’ equipment inventory records did not contain all required information.

RECOMMENDATION

In determining whether Kings should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
Kings’ financial condition.

KINGS COMMENTS

In written comments on our draft report, Kings stated that it did not dispute the validity of the
facts in the report. Kings’ comments are included in their entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program............................................................................................1
              Kings Community Action Organization, Inc. ....................................................1
              Requirements for Federal Grantees ...................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.......................................................2
               Objectives ..........................................................................................................2
               Scope..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATION.............................................................................3

          UNMET REQUIREMENT FOR NON-FEDERAL SHARE OF OUTLAYS ..............3

          INADEQUATE SYSTEMS AND INTERNAL CONTROLS
            FOR PROPERTY MANAGEMENT .........................................................................4

          RECOMMENDATION .................................................................................................5

          KINGS COMMENTS....................................................................................................5

APPENDIX

          KINGS COMMUNITY ACTION ORGANIZATION, INC., COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start (including Early Head Start and Migrant and Seasonal Head Start (MSHS)) is a national
program that promotes school readiness by enhancing the cognitive, social, and emotional
development of children through the provision of health, educational, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
programs.

Head Start provides grants to local public and private nonprofit and for-profit agencies to deliver
comprehensive child development services to economically disadvantaged children and families,
with a special focus on helping preschoolers develop the early reading and math skills needed to
be successful in school. Early Head Start promotes healthy prenatal outcomes, enhances the
development of infants and toddlers, and promotes healthy family functioning. MSHS provides
services to the children of low-income migrant and seasonal farmworkers. Local Head Start
programs engage parents in their children’s learning and emphasize parental involvement in
program administration.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Kings Community Action Organization, Inc.

Kings Community Action Organization, Inc. (Kings), a nonprofit agency, operates the Head
Start, Early Head Start, and MSHS programs, which provide education, health, and social
services to low-income children and their families at locations throughout Kings County,
California. Kings also operates child development, youth services, energy and housing, and
emergency services and crisis support programs. Kings was established in 1965 pursuant to the
Economic Opportunity Act of 1964 and has been in sustained operation for 44 years.

Kings is funded primarily through Federal and State grants. According to Kings’ financial status
reports (SF-269), Kings received the following ACF grant funds: Head Start and Early Head
Start funds totaling $4,548,216 for program year (PY) 2009 (April 1, 2008, through
March 31, 2009) and MSHS funds totaling $1,401,248 for PY 2009 (February 1, 2008, through
January 31, 2009).




                                                 1
Kings was awarded Recovery Act grant funds for the budget period July 1, 2009, through
September 30, 2010, totaling $394,809 1 for cost-of-living increases and quality improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs in accordance with the provisions of the applicable Federal cost principles and the terms
and conditions of the award. Grantees must maintain accounting records that are supported by
source documentation and must maintain financial systems that provide for accurate and
complete reporting of grant-related financial data. Grantees are also required to compare outlays
with budget amounts for each award and may use grant funds only for authorized purposes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited-scope review were to determine whether (1) Kings is fiscally viable
and (2) Kings’ financial management system adequately managed and accounted for Federal
funds.

Scope

We conducted our audit for the limited purpose described in the objectives; thus, the audit would
not necessarily have disclosed all material weaknesses. Accordingly, we do not express an
opinion on Kings’ overall system of internal accounting controls. We performed limited tests
and other auditing procedures on Kings’ financial management system to assess its ability to
administer federally funded projects.

We conducted our fieldwork from July to August 2009, which included a visit to Kings’
administrative office in Hanford, California.

Methodology

To accomplish our objectives, we:

          reviewed relevant Federal laws, regulations, and guidance;

          reviewed Kings’ fiscal procedures related to accounting documentation and preparation
           of financial reports;

          obtained selected Federal grant award documentation to determine Kings’ Federal
           funding;


1
    Head Start and Early Head Start program awards totaled $299,571, and MSHS program awards totaled $95,238.


                                                         2
           reviewed Kings’ audited financial statements for calendar years 2006 through 2008;

           reviewed Kings’ expense accounts, unaudited financial statements for the 5-month period
            ended May 31, 2009, Head Start and Early Head Start SF-269 submitted to ACF for
            PY 2009, and MSHS SF-269 submitted to ACF for PY 2009; and

           performed liquidity and stability analyses of Kings’ financial records.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                   FINDINGS AND RECOMMENDATION

Kings is fiscally viable. However, Kings did not meet the required non-Federal share of
20 percent for its MSHS program for the year ended January 31, 2009. In addition, Kings’
financial management system adequately managed and accounted for Federal funds except for its
systems and internal controls related to property management. Specifically, Kings did not
perform a physical inventory of its equipment at least once every 2 years as required by Federal
regulations, and Kings’ equipment inventory records did not contain all required information.

UNMET REQUIREMENT FOR NON-FEDERAL SHARE OF OUTLAYS

Pursuant to 45 CFR § 1301.20(a), “Federal financial assistance granted under the act [Title V of
the Economic Opportunity Act of 1964, as amended] for a Head Start program shall not exceed
80 percent of the total costs of the program, unless . . . [a]n amount in excess of that percentage
is approved . . . .” For the year ended January 31, 2009, Kings did not meet the required non-
Federal share of 20 percent for its MSHS program as reported on the SF-269. Also, Kings did
not request a waiver from ACF to reduce the required non-Federal share.

For PY 2009, Kings reported to ACF $1,604,611 of net outlays for its MSHS program on its
SF-269, dated April 30, 2009. Of this amount, $1,401,248 (87.33 percent) was the Federal share
of net outlays, and the remaining $203,363 2 (12.67 percent) was the non-Federal share. Based
on the reported Federal share of $1,401,248, Kings’ required non-Federal share was $350,312.
Therefore, the unmet non-Federal share was $146,949.

Kings did not meet the non-Federal share requirement of 20 percent for its MSHS program
because, according to Kings’ management, Kings overestimated the in-kind contribution of
parent services and failed to request a waiver from ACF to reduce the required non-Federal share
before the end of the PY.



2
    We did not assess the allowability or valuation of the non-Federal share that Kings reported on the SF-269.



                                                            3
Failure to meet the non-Federal share requirement could result in a disallowance of Federal
funds. ACF may require Kings to repay $4 for every $1 of its unmet non-Federal share, 3 or
$587,796 ($146,949 × $4 = $587,796). Kings would have to repay this amount from its own
funds, because Federal funds may not be used for repayment. If Kings were required to repay
this amount, it could have a severe impact on Kings’ financial capability.

Kings’ failure to meet the non-Federal share requirement for the MSHS grant was not disclosed
in Kings’ Single Audit Report dated May 13, 2009, nor in the ACF triennial MSHS grant review
report dated August 24, 2009.

For the year ended March 31, 2009, Kings met the required non-Federal share of 20 percent for
its Head Start and Early Head Start programs as reported on the SF-269.

INADEQUATE SYSTEMS AND INTERNAL CONTROLS FOR
PROPERTY MANAGEMENT

Kings did not maintain adequate systems and internal controls for property management in
accordance with 45 CFR § 74.34(f) and OMB Circular A-110 (2 CFR part 215), subpart C,
section __.34(f). These regulations identify the following required property management
standards for equipment acquired with Federal funds and federally owned equipment:

       accurate equipment records, including a description of the equipment, an identification
        number, the acquisition date, and the condition of the equipment;

       proper identification of equipment owned by the Federal Government;

       physical inventory and reconciliation of equipment records at least once every 2 years;

       a control system to ensure adequate safeguards to prevent loss, damage, or theft of the
        equipment;

       adequate maintenance procedures; and

       proper sales procedures, which provide for competition and result in the highest possible
        return.

Kings did not perform a physical inventory of its equipment at least once every 2 years as
required by Federal regulations. Kings stated that the most recent physical inventory of
equipment was performed in 2005. In addition, Kings’ equipment inventory records did not
contain all required information. Specifically, the records did not identify the Federal award
number, acquisition date, or condition of the equipment (including the date that this information
was reported) for the selected equipment. On its calendar year 2008 audited financial statements,
Kings’ total equipment expense for its Head Start programs was $494,840.

3
“Non-Federal Share Narrative,” ACF guidance published on the Early Childhood Learning and Knowledge Center
Web site, http://eclkc.ohs.acf.hhs.gov/. Accessed September 10, 2009.


                                                    4
In general, Kings had policies and procedures to comply with the property management
regulations; however, Kings’ management did not ensure that these policies and procedures were
followed. Because Kings did not perform a physical inventory of equipment at least once every
2 years and maintain adequate equipment management systems, Kings is unable to provide
current information about the existence, use, and condition of its federally funded equipment.
Kings’ failure to perform a physical inventory as required by Federal regulations and maintain
adequate equipment inventory records was not disclosed in Kings’ Single Audit Report dated
May 13, 2009, the ACF triennial Head Start/Early Head Start grant review report dated
June 3, 2008, or the ACF triennial MSHS grant review report dated August 24, 2009.

RECOMMENDATION

In determining whether Kings should be awarded additional Head Start and Recovery Act grant
funding, we recommend that ACF consider the information presented in this report in assessing
Kings’ financial condition.

KINGS COMMENTS

In written comments on our draft report, Kings stated that it did not dispute the validity of the
facts in the report. Kings’ comments are included in their entirety as the Appendix.




                                                 5
APPENDIX
APPENDIX: KINGS COMMUNITY ACTION ORGANIZATION, INC., COMMENTS 




  KIN G S               COM M U NIT Y                                                                           <'·l~.~.




  KCAO 

  ACTION ORGANIZATION
                                                                                  Helping People, Changing Uves Since 1965

                                                                                                                                 '


  John Stilnkovich
  Boaf(J Chairperson
                                                    October 2, 2009
  Meli55il Whinen
  Vlce--Chi1irperson

  D.'ivid B. DfOker, MA                             Jerry McGee, Audit MGtr'iGtger
  Executive       Oi ~ector'
                                                    Office of Inspector General
                                                    Region IX
  Child Care Services                               Office of Audit Services
    • Alternative Payment Program
    • Cal Works Stages            r, II, III        90·7'h Street, Suite 3·650
    • Preschool Progri:lrm
    • Resource & Reh.:-trclJ
                                                    San Francisco, CA 94103
    • Toy l ending UI) r"Bry

  Emergen<;y Services                               Re: Report Number: A-09-09-00096
    •   Clothing Closet
    •   Food Distribution                           Dear Mr. McGee:
    •   Senior Nutrition
    •   Utility Assistance
                                                    We are writing in response to the U.S. Department of Health and Human
  Energy & Housing
    I   Housing Asshtance                           Services, Office of Inspector General (OIG) draft report report number
    • Wecllherizil(ion                              referenced above. Our comments will not dispute the validity of the farn
  Head Stilrt Programs                              in the report, but are offered as explanation of the facts.
    • Child Care Food Proqram
    • ~arty Head Start                •
    • HC.;l/thy M; 'rr ii.'g~ Pr'og(am              The unmet requirement for non-Federal share for the Migrant Head Start
    • Migrant & Seasonal                            program under contract number 90CM 1628/ 30 is not in dispute. We
    •   r~eg i onal
                                                    would like to note that we have requested a reduction in the required non­
  Intervention, Prevention 
                        Federal share for the contract year be retroactively applied and we are
  & Supportive Services 

    • Domestic Violence Shelter
                                                    awaiting a decision on our request. We have also review and revised the
    • Homeless Women:':' ~h~ l!'er                  amount of non-Federal share and will report the updated amount to the
    •   Ll'9~11   A(lvoc,,:1t:Y
    • PC/rent l:t1uC<ll1o n/Respite
                                                    Office of Head Start. The failure to meet the non-Federal share requirement
    • $cxtJ.=-t1 A<:Sc1Ulr                          was not disclosed in the Single Audit Report but will be disclosed in the
      Respom:e Team {WITI
    • Stv1ART Program
                                                    report for the year ending December 31 , 2009.
    • Teen·Parent SeIVices
    • VICtim SefYices Center                        We are currently in the process replaCing the inventory system and will
                                                    ensure that the policies and procedures in place will be followed in order to
                                                    record and maintain a current inventory of federally funded equipment,
                                                    with all the requisite information.

                                                    Thank you for your consideration of this request. Please do not hesitate to
                                                    contact me if you require any additional information.


                                                    Sincerely,


  KCAO MISSION

  TO ;;rClvocLlte. educate. and 
                   David B. Droker
  provide a w1de range of quality 
                 Executive Director
  services that empower. promote 

  self-5ufficiency. prCSCt\lC d ig nity. 

  and irnptove lhe quality of life for 

  me Individuals and communities 

  of Kings County. 





                                  1130 N. 1 IthAvenue   II   Hanford. CA 93230· Sl,.lsineSs: 559.582. 4396 · Facsimile: 559. 582.2146· WNW,k;CClo, org
